HHS/OIG-Audit--"Review of Costs Claimed by St. Johns Home Health Agency, (A-04-94-02078)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by St. Johns Home Health Agency," (A-04-94-02078)
February 2, 1995
Complete
Text of Report is available in PDF format (1.22 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that 75.5 percent of St. Johns' reimbursement claims for providing home health services
for the fiscal year ended June 30, 1993 were inappropriate because; (1) 21.5 percent were for home health visits not made,
(2) 29 percent were for visits made to individuals who, in their own opinion, or in the opinion of medical experts, were
not homebound, (3) 23.5 percent were for visits which physicians denied authorizing, and (4) 1.5 percent were for visits
which the beneficiary did not want or were not adequately documented. Of the $45.4 million claimed by St. Johns for FY
1993, we estimate that $25.9 million was for improper claims. While we understand that St. Johns is currently in bankruptcy
proceedings, we recommended that the Health Care Financing Administration (HCFA), to the extent possible, recover overpayments
as part of those proceedings. The HCFA concurred with our recommendation.